                                      January 3, 2014

TO:          Andrew M. Wasilisin
             Chief Human Capital Officer

FROM:        Stuart Axenfeld /s/
             Assistant Inspector General for Audit

SUBJECT:     OIG Report 14-07 - Results of OIG Evaluation of the Corporation’s
             Personnel Education and Qualification Review


The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), performed an evaluation of the Corporation’s Personnel Education and
Qualification Review. The evaluation focused on validating the Corporation’s personnel
academic credentials and professional certification and was conducted in accordance
with the Quality Standards for Inspection and Evaluation promulgated by the Council of
the Inspectors General on Integrity and Efficiency.

Results: We found no instances of fraudulent or “diploma mill” academic degrees. None
of the schools we reviewed were on the List of Unaccredited Schools obtained from the
Consumer Fraud Reporting Organization. All the schools we reviewed were listed on
the Department of Education’s Database of Accredited Post-Secondary Institutions and
Programs, with the exception of two schools which were no longer in existence.

However, we found that the Corporation has no polices or procedures for validating new
personnel’s academic credentials.      The Corporation relies on the background
procedures performed by the Office of Personnel Management to validate the academic
credentials. Lack of policies and procedures to govern the review of personnel
academic credentials can create avenues that result in poor enforcement of hiring new
personnel with fraudulent degrees.

Recommendations: We recommend the Corporation develop policies and procedures
to ensure that only employees with academic credentials from accredited institutions are
considered for Federal positions with education requirements, student loan repayment,
and sponsoring employees to obtain college degrees (if applicable). The policies and
procedures should be communicated to all Corporation employees.

Objectives, Methodology, and Scope: The objectives of this evaluation are to: (1)
determine if the Corporation has processes and procedures in place to verify the
authenticity and credibility of employee’s academic credentials (e.g. degrees, diplomas,
                 1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                    202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov

                      Senior Corps  AmeriCorps  Learn and Serve America
and professional certificates); and (2) verify that the Corporation did not fund education
or training from a “Diploma Mill” or unaccredited educational institute.

We conducted our field work at the OIG’s office from June 3rd to September 10th, 2013.
Our methodology included reviewing electronic personnel files to obtain academic
records including resumes and applications; contacting the schools and accessing the
National Student Clearing House to validate the academic credentials; and reviewing
the Office of Personnel Management’s policies and procedures, Department of
Education guidance, and the Corporation’s policies and procedures relating to hiring
practices. We selected 45 random samples of the Corporation employees and
reviewed their electronic personnel files. The scope of the review focused on current
Corporation employees with the exceptions of presidential appointees, temporary and
discretionary staff as of March 31, 2013.

Background: In May 2004, the Government Accountability Office (GAO) issued a
report on Diploma Mills which revealed several instances where federal employees
obtained degrees from “Diploma Mills” and other unaccredited schools, some at
government expense. Diploma Mills (also known as degree mills) are fraudulent
postsecondary, nontraditional, and unaccredited schools that sell academic degrees
based upon life experience or substandard or negligible academic work. Diploma Mills
offer degrees for a relatively low flat fee, promote the award of academic credits based
on life experience, and typically do not require any classroom instruction. The credits
and degrees awarded by a “Diploma Mill” should not be recognized by reputable
employers.      In February 2005, the US Department of Education launched
www.ope.ed.gov/accreditation to combat the spread of fraudulent degrees.

According to the Department of Education, the Office of Personnel Management has
been involved with keeping diploma mill degrees from the Federal workplace by
providing ongoing guidance to Federal departments and agencies emphasizing that
'degrees' from diploma mills will not be accepted for purposes of qualifying for Federal
positions, for student loan repayment, and for purposes of paying employees to obtain
college degrees.

We appreciate the time and assistance you and your staff provided during the review. If
you have questions or wish to discuss this letter, please contact me at (202) 606-9360
or s.axenfeld@cncsoig.gov; or Sheyi Idowu, Auditor, at (410) 274-0265 or
sheyi.idowu@cncsoig.gov.

Sincerely,


Stuart G. Axenfeld
Assistant Inspector General for Audit

cc:   Kim Mansaray, Acting Chief Operating Officer
      Sherman Tsien, Senior Human Capital Advisor
      Lisa Love-Adams, Director of Personnel Operations (Staffing)
